Supreme Court, U.S.
FILED

206604

SEP 2 8 2020
OFFICE OF THE CLERK

No.

SUPREME COURT OF THE UNITED STATES
Mark T. Grant,
Petitioner,
vs.
City of Roanoke, Virginia,
Respondent.
On Petition for a Writ of Certiorari to
the United States Court of Appeals
for the Fourth Circuit
PETITION FOR A WRIT OF CERTIORARI
Mark T. Grant
pro se
41 TURTLEBACK PATH
HARDY, VIRGINIA 24101
Tel.: (540) 427-1441
Fax:(540)427-1441
Cell: (540) 761-3347
E-Mail: kingcar2002@vahoo.com

ORIGINA

RECEIVED
DEC - 8 2020

QUESTIONS PRESENTED
Question 1: The HUD, Participating Jurisdiction, and Citizen Relationship
HUD and the City of Roanoke, VA entered into a contract where the City would accept
federal funding to create housing and follow the regulations of the federal spending clause that
allowed for this to happen. The City was found non-compliant by HUD as they were not
following the regulations in effect, and the HUD-City contract was voided when the City repaid
the federal funds.
When the HUD-City contract was voided, why wasn’t the subsequent City-Citizen
contract voided with cause?
•- ..y'; ,

When the city repaid the federal funds, why was the citizen still bound by now nonexistent federal funds in the City-Citizen contract?

Question 2: 4th and 14th Amendment
The District Court for the Western District of Virginia concluded (7:16-cv-07) that City
met the minimal requirements of due process guaranteed in the 14th Amendment for a 4th
amendment seizure of property. The Citizen was allowed a choice of losing either a
Constitutionally protected right of liberty, or losing a Constitutionally protected right of property.
How can a minimal requirement be sufficient when either outcome of a choice allowed to
a Citizen by a local government results in the loss of a Constitutionally protected right? If these
rights deprived then wouldn’t Monell apply?

Question 3: Wright (479 U.S. 418) and Wilder (496 U.S. 498) v. Gonzaga (536 U.S. 273)
In both Wright and Wilder, the Court concluded that a private cause of action exists when
there is a tangible loss of property in a federal spending clause. In Gonzaga, the Court concluded
that there is no private cause of action in a federal spending clause if there is no tangible loss of
property.
Does Gonzaga foreclose on all private causes of action in a federal spending clause, or
just those where there is no tangible loss of property?

PARTIES TO THE PROCEEDINGS
The only parties to this proceeding are the Petitioner, Mark T. Grant, pro se, and the
Respondent, the City of Roanoke, Virginia.

TABLE OF CONTENTS

QUESTIONS PRESENTED

i

PARTIES TO THE PROCEEDINGS

i

TABLE OF CONTENTS

ii

TABLE OF APPENDICIES

iii

TABLE OF AUTHORITIES

iv

OPINIONS BELOW

1

STATEMENT OF JURSDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

2

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE PETITION

14

CONCLUSION

15

ii

TABLE OF APPENDICES

Mark T. Grant v. the City ofRoanoke, Virginia, 4th Circuit Court of Appeals, case # 191999 (June 29, 2020).
APPENDIX A

Mark T. Grant v. the City ofRoanoke, Virginia, United States District Court, Western
District of Virginia, case # 7:16-cv-0007 (March 19, 2019).
APPENDIX B

Mark T. Grant v. the City ofRoanoke, Virginia, United States District Court, Western
District of Virginia, case # 7:16-cv-0007 (November 7, 2017).
APPENDIX C

Mark T. Grant v. the City ofRoanoke, Virginia, United States District Court, Western
District of Virginia, case # 7:16-cv-0007 (July 18, 2017).
APPENDIX D

U.S. Department of Housing and Urban Development investigation, (July 15, 2014 September 15, 2015) Rule 14.1 (i)(ii)
APPENDIX E

TABLE OF AUTHORITIES
Cases
Wright v. Roanoke Redevelopment Auth., 479 U.S. 418 (1987)
Wilder v. Virginia Hosp. Ass'n, 496 U.S. 498 (1990)
Gonzaga Univ. v. Doe, 536 U.S. 273 (2002)
Monell v. Department of Soc. Svcs., 436 U.S. 658 (1978)
Cort v. Ash, 422 U.S. 66 (1975)

iii

California v. Sierra Club, 451 U.S. 287 (1981)
Mathews v. Eldridge, 424 U.S. 319 (1976)
Cleveland Bd. of Educ. v. Loudermill, 470 U.S. 532 (1985)
County of Sacramento v. Lewis, 523 U.S. 833 (1998)
Patsy v. Board of Regents of State of Florida, 457 U.S. 496 (1982)
Felder v. Casey, 487 U.S. 131 (1988)

Constitutional Authority
U.S. Constitution, 4th Amendment
U.S. Constitution, 14th Amendment

Federal Statutes
42 U.S. Code § 12745(b)(3)(A)(i)
24 CFR § 92.254(a)(5)(i)
28 U.S. Code § 1331

OPINIONS BELOW
The opinions of the lower courts in this case have not been published.

STATEMENT OF JURSIDCTION

The United States District Court for the Western District of Virginia had jurisdiction over
this case pursuant to 18 U.S.C § 3231.
The United States Court of Appeals for the Fourth Circuit had jurisdiction over this case
pursuant to 28 U.S.C § 1291.
The United States Court of Appeals for the Fourth Circuit rendered its decision on June
29, 2020. The jurisdiction of this Court is invoked pursuant to 28 U.S.C § 1254(1). Petitioner
initially filed a Petition for a Writ of Certiorari on September 28, 2020. The Clerk determined .
that the petition was submitted timely and in good faith but is not in a form that complies with
Rule 14, or with Rule 33, or Rule 39. The Clerk returned the petition with a letter indicating the

iv

deficiency. A corrected petition will be submitted in accordance with Rule 29.2, no more than 60
days after the date of the Clerk’s letter, and Petitioner is contemporaneously filing a motion for
leave to proceed in forma pauperis.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

U.S. Constitution
Amendment IV
The right of the people to be secure in their persons, houses, papers, and effects, against
unreasonable searches and seizures, shall not be violated, and no warrants shall issue, but upon
probable cause, supported by oath or affirmation, and particularly describing the place to be
searched, and the persons or things to be seized.

Amendment V
No person shall be held to answer for a capital, or otherwise infamous crime, unless on a
presentment or indictment of a grand jury, except in cases arising in the land or naval forces, or
in the militia, when in actual service in time of war or public danger; nor shall any person be
subject for the same offense to be twice put in jeopardy of life or limb; nor shall be compelled in.
any criminal case to be a witness against himself, nor be deprived of life, liberty, or property,
without due process of law; nor shall private property be taken for public use, without just
compensation.

Amendment XIV
Section 1.
All persons bom or naturalized in the United States, and subject to the jurisdiction thereof, are
citizens of the United States and of the state wherein they reside. No state shall make or enforce
any law which shall abridge the privileges or immunities of citizens of the United States; nor
shall any state deprive any person of life, liberty, or property, without due process of law; nor
deny to any person within its jurisdiction the equal protection of the laws.

Statutory Provisions
42 U.S. Code § 1274$(b)(3)(A)(i)

1

(b)Homeownership
Housing that is for homeownership shall qualify as affordable housing under this subchapter
only if the housing—
(3)is subject to resale restrictions that are established by the participating jurisdiction and
determined by the Secretary to be appropriate to—
(A)allow for subsequent purchase of the property only by persons who meet the
qualifications specified under paragraph (2), at a price which will—
(i)provide the owner with a fair return on investment, including any improvements, and..

24 CFR § 92.254(a)(5)(i)
(a) Acquisition with or without rehabilitation. Housing that is for acquisition by a family
must meet the affordability requirements of this paragraph...
(5) Resale and recapture. The participating jurisdiction must establish the resale or
recapture requirements that comply with the standards of this section and set forth the
requirements in its consolidated plan. HUD must determine that they are appropriate and must
specifically approve them in writing.
(i) Resale. Resale requirements must ensure, if the housing does not continue to be the
principal residence of the family for the duration of the period of affordability that the housing is
made available for subsequent purchase only to a buyer whose family qualifies as a low-income
family and will use the property as the family's principal residence. The resale requirement must
also ensure that the price at resale provides the original HOME-assisted owner a fair return on
investment (including the homeowner's investment and any capital improvement) and ensure that
the housing will remain affordable to a reasonable range of low- income homebuyers. The
participating jurisdiction must specifically define “fair return on investment” and “affordability
to a reasonable range of low-income homebuyers,” and specifically address how it will make the
housing affordable to a low-income homebuyer in the event that the resale price necessary to
provide fair return is not affordable to the subsequent buyer. The period of affordability is based
on the total amount of HOME funds invested in the housing.

28 U.S. Code § 1331
The district courts shall have original jurisdiction of all civil actions arising under the
Constitution, laws, or treaties of the United States.

2

STATEMENT OF THE CASE

Trice in the District courts opinion on 19th of March, 2019, it is mentioned [(1) "... it is
clearfrom the evidence that errors were made by the city in applying the resale provisions”,
and, (2) “it is the court’s understanding that resale formulas will be recalculated”, and again,
(3) “the city should give appropriate consideration in its revised calculations...” ].
There is currently no dispute by any of the parties involved that a protected property
interest is the thing that was taken from the Plaintiff by the city. The core question remaining is,
"Does a local governing body, who voluntarily enters into a Federal spending program,
have the right to manipulate the Federally mandated framework in place, congruent to that
specific Federal spending program, allowing the local governing body to gain an advantage
not defined inside the Laws or regulations created by Congress, by seizing either a
constitutionally protected property interest, or a program specific monetary entitlement,
using a restrictive covenant as an illicit tool, from another participant in the same Federal
spending program?”
The Supreme Court in Wilder v. Virginia Hospital Assn, said no. The Supreme Court in
Wright v. Roanoke Redevelopment and Housing Authority said no. This instant case runs more
parallel to the Wright case, where a protected property interest was taken by the local governing
body engaged in a Federal spending program from other participants engaged in the same
Federal spending program. The local governing body in Wright manipulated the terms set forth
in that Federal spending program, to their own advantage, unlawfully enabling the local
governing body to take an amount above their program specific monetary entitlement, which was
the 30% threshold of income mandated, from other participants engaged in the same Federal
spending program.

3

HUD has labeled the type of restrictive covenant that the defendants used as a “hybrid”,
having been produced by a combination of two or more distinct elements from different program
origins. HUD found that the defendants creation and subsequent enforcement of this hybrid
restrictive covenant to be non-program compliant. HUD’s findings were specific to the
Integrated Disbursement and Information System (IDIS) number 901, the exact restrictive
covenant that the defendants used to take protected property interests from the plaintiff. HUD is
granted the regulating authority by 42 U.S. Code § 2000d-l, but has been given no judicial
authority in their administrative capacity; and as such, HUD could only command the defendants
to elect an option of either; 1) restructuring the restrictive covenants, or 2) pay a penalty. The
defendants chose the latter, and in doing so, separated their policy from HUD’s policy. HUD’s
administrative authority over the specific IDIS #901 ended when the defendants payed the
penalty. Before that point of voluntary separation of policy by the defendants, the City of
Roanoke was acting on behalf of the Federal government as agents of 42 U.S. Code § 12745.
When viewed in this light, this case takes the color of a Bivens action: in the authoring of the
restrictive covenant dated 29th April, 2005; and the enforcement of the restrictive covenant on the
10th of January 2014. After that point of voluntary separation of policy by the defendants, as
noted in the “Close Out Action” letter by HUD dated 10 September, 2015; the continuation of a
policy where the action that is alleged uses unconstitutional implements, or executes a policy
statement, ordinance, regulation, or decision officially adopted and promulgated by that body's
officers, as pre-determined to be errant by the Federal Regulating Agency; then a Monell action
takes hold.
HUD found, and the court agreed to, three things wrong with the defendant’s restrictive
covenants; 1) the formula used, 2) the methodology used, 3) no consideration for the $2200 in

4

HOME funds. The court also independently found three more things wrong with the restrictive
covenants; 4) no language for the taking of home equity, 5) the inclusion for “any” home
improvement, but the consideration of none, 6) no consideration for the $6400 CDBG grant. The
, court has acknowledged and addressed six total deficiencies in the defendant’s restrictive.
covenants; yet, the court has allowed this lame beast to survive and continue to cause damage to
the plaintiff. The court in Shelley v. Kraemer, 334 U.S., Harmon v. Tyler, 273 U.S. and
numerous other decisions have said that all citizens, regardless of race, cannot be deprived of a
protected property interest from a constitutionally errant restrictive covenant. This instant case
asks the same question for all citizens impacted, not by just by race, but by all U.S. citizens who
are egregiously and unconstitutionally penalized from local governments by what HUD has
defined as a hybrid restrictive covenant, “Can a state or local government, either acting on
behalf of the Federal government, or by their own errant policy, strip a citizen of
constitutionally protected liberty or property using a restrictive covenantfor the tool of
deprivation?”

Private cause of action. The Court denied the Plaintiff an implied cause of action using
the Gonzaga case as a precedent. The Plaintiff disagrees with this decision tying Gonzaga to this
instant case because the Supreme court found the provisions of the Family Educational Rights
and Privacy Act of 1974 (FERPA) created no personal rights to enforce under 42 U. S. C. §
1983. Contrarily, in Gonzaga the Court said that a Federal spending program does provide a
private cause of action if: 536 U.S. 280, 281, “Since Pennhurst, only twice have wefound
spending legislation to give rise to enforceable rights. In Wright v. Roanoke Redevelopment
and Housing Authority, 479 U. S. 418 (1987), we allowed a § 1983 suit by tenants to recover

5

past overcharges under a rent-ceiling provision of the Public Housing Act, on the ground that
the provision unambiguously conferred "a mandatory [benefit]focusing on the individual
family and its income." Id., at 430. The key to our inquiry was that Congress spoke in terms
that "could not be clearer," ibid., and conferred entitlements "sufficiently specific and definite
to qualify as enforceable rights under Pennhurst. " Id., at 432. Also significant was that the
federal agency charged with administering the Public Housing Act "ha[d] never provided a
procedure by which tenants could complain to it about the allegedfailures [of state welfare
agencies] to abide by [the Act's rent-ceiling provision]." Id., at 426.
Three years later, in Wilder v. Virginia Hospital Assn., 496 U. S. 498 (1990), we
allowed a § 1983 suit brought by health care providers to enforce a reimbursement provision
of the Medicaid Act, on the ground that the provision, much like the rent-ceiling provision in
Wright, explicitly conferred specific monetary entitlements upon the plaintiffs. Congress left
no doubt of its intentfor private enforcement, we said, because the provision required States to
pay an "objective" monetary entitlement to individual health care providers, with no sufficient
administrative means of enforcing the (281) requirement against States thatfailed to comply.
496 U. S., at 522-523. Both the Petitioner Gonzaga University, and the Respondent Doe were
participants of FERPA and both parties benefited from that spending act. There was no case
however, since the Respondents Constitutional rights remained intact and no program specific
monetary entitlement of FERPA was taken from the Respondent by the university. In this instant
case, the city seized both a constitutionally protected property right (equity in the home) [14th
Amendment: Section 1.... No state shall make or enforce any law which shall abridge the
privileges or immunities of citizens of the United States; nor shall any state deprive any person
of life, liberty, or property, without due process of law...] and a program specific monetary

6

entitlement (fair return on investment) [42 U.S. Code § 12745(b)(3) (A) (i) provide the owner
with afair return on investment, and 24 CFR § 92.254(a)(5)(i) ... The resale requirement must
also ensure that the price at resale provides the original HOME-assisted owner a fair return
on investment...].
The net Return on Investment in this instant case is $21,000 ($106,000 sale price minus
the initial $85,000 investment) at a growth rate of roughly 2.49%. The gross Return on
Investment in this case is $11,586.23 ($21,000 net return minus the $9,413.77 in costs) at a
growth rate of roughly 1.44%, which is hardly an exorbitant amount. The Plaintiff in this instant
case maintains he has a private cause of action under Wright, Wilder, and Gonzaga; as a program
specific monetary entitlement, that of a fair return on investment, which is defined in the
regulations at 24 CFR § 92.254(a)(5)(i) and is unambiguously conferred as a mandatory benefit
focusing on the individual family and its income, was deprived to the plaintiff by the defendants.
In this instant case, both the $11,586.23 fair return on investment, and the $14,671.07 of homeowners equity were taken by the defendant.

14th Amendment violation. The Court denied the Plaintiffs claim for relief under the 14th
Amendment using Snider Int'l Corp. v. Town of Forest Heights case as a precedent. Snider Int'l
is a case where a bunch of people were caught speeding by a speed camera in Maryland and were
notified of their infractions by first-class mail. The court in Snider Int'l concluded that the
plaintiffs 14th amendment rights were not infringed upon and no protected rights were lost.
Snider Int'l quotes Mathews v. Eldridge, [“Mathewssetforth the familiar three-step inquiry
for determining the adequacy of the opportunity to be heard: a balancing of the private
interest and the public interest, along with “the risk of an erroneous deprivation of such

7

interest through the procedures used, and the probable value, if any, of additional or substitute
procedural safeguards. ” 424 U.S. at 335, 96 S.Ct. 893.] 739 F. 3d 146. In this instant case, an
erroneous deprivation through the procedures used is exactly what happened. The HUD Findings
against the city made that abundantly clear. The court recognized these Findings from HUD as
factual evidence and said in its decision, “... it is clear from the evidence that errors were made
by the City in applying the resale provisions of the Restrictive Covenants. ” If HUD says that the
tool used by the defendant is erroneous, and the court agrees with HUD that the tool used by the
defendant is erroneous, then why does this erroneous tool still exist and continue to cause a
deprivation of a protected property interest to the plaintiff? And if an erroneous tool was used to
cause a deprivation of a protected property interest, where is the plaintiffs due process?
The Court denied the Plaintiffs claim for relief under the 14th Amendment using Sunrise
Corp. v. City of Myrtle Beach case as a precedent. Sunrise is a case about a building permit that
was initially denied, but eventually granted. The court in Sunrise concluded that the plaintiffs
14 amendment rights were not infringed upon since they received the permit they were seeking,
using the administrative appeals provided, and as such, no property rights were lost. In Sunrise,
there were three levels of review clearly defined in the city code. ‘‘Ifthe Board denies the
proposal, the applicant can appeal to the City Council, Myrtle Beach Code Appx. A § 606,
which reviews the proposal de novo.

Myrtle Beach Code Appx. A § 606.2. If the City Council

affirms the Board, the applicant has the right to appeal to the Circuit Court in andfor Horry
County. 3 Myrtle Beach Code Appx. A § 606.2. ” Sunrise Corp. v. City of Myrtle Beach, 420
F.3d 325. An additional fourth level of appeal was present from the South Carolina Court of
Appeals. “We are of opinion that plaintiffs received due process, both procedural and
substantive.

Plaintiffs claim that their due process rights were violated because the hearings

8

they received were unfair.

Even if true, which we do not decide, this does not change the fact

that plaintiffs receivedfour levels of review, in each of which they were permitted to present
their side of the controversy. In cases such as this we review the state process as a whole, and do
not look only to what happened in front of the Board. See e.g. Tri County Paving, Inc. v. Ashe
County, 281 F.3d 430, 437 (4th Cir.2002)(a “dueprocess violation actionable under § 1983 is
not complete when the deprivation occurs; it is only complete ifand when the State fails to
provide due process”) (quoting Fields v. Durham, 909 F.2d 94, 98 (4th Cir.1990)). While it is
true that there were several levels ofjudicial and administrative review, plaintiffs received the
very remedy they sought, the permit to develop the property. ” Sunrise Corp. v. City of Myrtle
Beach, 420 F.3d 328 (4th Cir. 2005).
The plaintiff in this instant case had exactly zero levels of review clearly defined in the
Roanoke City code. The court quoted the City code of Roanoke; Ch. 2, Art. V, § 2-120, "Except
as otherwise specifically provided the city manager shall exercise supervision and control over
all city departments and divisions." Stating that a person is in charge of a thing is not a
documentation of fact automatically creating an avenue for an appeal. That is not a clear course
for review, not even to the courts standards of review for building permits in Sunrise, so how is
this precedent relevant?
In this instant case, the same city department that was taking the protected property
interest decided it would be O.K. for them to just go ahead and take it using an erroneous tool,
and at no time in the pre-deprivation process did the supervisor of that department (Hollins)
inform the plaintiff that any avenue for appeal existed from the city outside of Hollins’
department. Instead, the Plaintiff was told, “We’ve talked with the city’s attorney... we will
enforce this contract as it is written... we are going to take every nickel from you at closing. ”

9

That’s when the plaintiff reached out to HUD for guidance and filed the pre- deprivation
complaint with HUD. The plaintiff was led to believe that all courses of action for review within
the city were exhausted, and HUD was the next step in the review process. In that one and only
external review from HUD, the city’s program was in fact found non-compliant. An assumption
can be made at this point that the plaintiff would be made whole by HUD, however, HUD does
not have either a congressionally mandated obligation or authority to remedy any individual
beneficiary to any of the multitude of programs that HUD oversees; HUD’s sole purpose is to
manage the execution of its programs.
The Court denied the Plaintiffs claim for relief under the 14th Amendment using
Rockville Cars. LLC v. City of Rockville case as a precedent. Rockville Cars is another case
about building permits; but in this case, the plaintiff submitted a building permit that was
approved, but then they proceeded to do work that was outside the defined parameters of the
approved building permit. The now unapproved construction site was temporally shut down by
the city of Rockville, MD; until the plaintiff submitted a new Site Plan, when the plaintiffs were
then allowed to complete construction under an amendment made to the original Building
Permit. Once again, the court in Sunrise concluded that the plaintiffs 14th amendment rights
were not infringed upon, and no property rights were lost. Once again, the city code in Sunrise
was clear about the process for the submission of a building permit, the remedy to reverse a
temporary suspension of that building permit, and levels of appeal available.
The court in Rockville Cars stated that, “Had Plaintiffs been advised by Defendants that
no such appeal could be taken or had they otherwise been somehow blockedfrom appealing,
their argument might be more plausible. Standing alone, however, Plaintiffs' subjective belief
that no right to appeal existed cuts no ice at all. ” The plaintiff in this instant case was

10

objectively advised by the defendants that the city’s department supervisors’ decision, under advice from the city’s counsel, was final. No internal course for appeal was offered to the
plaintiff at that time by the defendants, and nothing in the city’s code clearly provides for a
course of appeal for that department supervisors’ decision. The administrative appeal process
provided by the Roanoke city code is not constitutionally sufficient for either a pre-deprivation
process or a post-deprivation process pertaining to the deprivation of a protected property
interest when they are using their own errant-tool-policy.
"An essential principle of due process is that a deprivation of life, liberty, or property 'be
preceded by notice and opportunity for hearing appropriate to the nature of the
case.’"Loudermill, 470 U.S. at 542, 105 S.Ct. 1487 (quoting Mullane v. Central Hanover Bank
& Trust Co., 339 U.S. 306, 313, 70 S.Ct. 652, 94 L.Ed. 865 (1950)); see also Pearson, 644
F.Supp.2d at 46 (citing Mathews v. Eldridge, 424 U.S. 319, 96 S.Ct. 893, 47 L.Ed.2d 18 (1976)).
In the Snider Inf 1, Sunrise, and Rockville Cars precedents that the District court used, none of
the plaintiffs were deprived a protected property interest, yet all three of them had a better
codified process for an administrative appeal. The plaintiff in this instant case was not afforded
an opportunity for a hearing appropriate to the nature of the case.
Unlike any of these three precedents used by the court; in this instant case, the plaintiff
did lose a protected property interest, and the amount of due process provided to the plaintiff in
this instant case was less than that which was afforded to the plaintiffs in these precedents where
nothing was lost. “The touchstone of due process is protection of the individual against arbitrary
action of the government. ” County of Sacramento v. Lewis, 523 U.S. 833, 845, 118 S.Ct. 1708,
140 L.Ed.2d 1043 (1998). Only “the most egregious official conduct” qualifies as
constitutionally arbitrary. Huggins v. Prince George's Cnty., Md., 683 F.3d 525, 535 (4th

11

Cir.2012) (quoting Lewis, 523 U.S. at 846, 118 S.Ct. 1708). To give rise to a substantive due
process violation, the arbitrary action must be “unjustified by any circumstance or governmental
interest, as to be literally incapable of avoidance by any pre-deprivation procedural protections
or of adequate rectification by any post-deprivation state remedies. ” Rucker v. Harford Cnty.,
946 F.2d 278,281 (4th Cir. 1991).
If the court is saying that what happened to the plaintiff satisfies procedural due process,
then the plaintiff re-ignites his claim for substantive due process. It seems as though the court
considers procedural due process in this light: You are walking through down the street when a
gang of thieves approaches you. The gang of thieves proclaims, “ We ’re going to take your
wallet. ” You say to the gang of thieves, “You can ’(take my wallet because it’s wrong. ” The
gangs of thieves talk amongst themselves and arrive at a conclusion, and then proceed to take
your wallet. According to the court, you received notice from the party taking something from
you, and you had an opportunity to be heard by the party taking something from you, thereby all
aspects of procedural due process were satisfied. In this scenario the gang of thieves has
committed no wrongdoing, yet you are left standing without a wallet. There was no trial. There
was no evidence submitted. There was no testimony or cross examination. There was no neutral
party to resolve the issue. The respondents’ just decided amongst themselves to take.
The plaintiffs congressionally mandated fair return on investment of $11,586.23, and the
plaintiffs equity of $14,671.07 were both taken by the defendant. The plaintiff maintains his 4th
Amendment rights against unlawful seizure; and, his 14th Amendment rights for due process
were violated, as an opportunity for a hearing appropriate to the nature of this case a case of a
deprivation of constitutionally protected property interests, by an erroneous tool grafted by local
government, was not afforded by the defendant.

12

Breach of contract in state court. The plaintiff is pro se, and unlearned in the matter of
law, but has never seen this case as a breach of contract matter. The court quoted Riordan v.
Hale, 212 S.E.2d 65, 67 (Va. 1975) {describing restrictive covenants as "contractual devices"
that "must be strictly construed") which was a case about fences built too close to the property
line. But, in this instant case, the restrictive covenant is an erroneous tool, as found by HUD and
agreed with by the court. 42 U.S. Code § 12703 gave birth to these restrictive covenants. 24 CFR
§ 92.254 regulates these restrictive covenants. Congress continues to fund the program that pays
for these restrictive covenants to be created. The U.S. Department of Housing and Urban
Development supervises these restrictive covenants. The defendants created their own policy in
this restrictive covenant, outside the Federal Law, regulations, and HUD guidance. The
defendants turned a Federal program, designed to create affordable housing for low-income and
moderate-income families, into an erroneous tool to extract constitutionally protected liberty and
property from the same families the program was designed to help.
To this untrained pro se plaintiff, this is not simply just a contract dispute to be
adjudicated at the state level. The question is not if the contract was breached, but if the contract
was legal. The defendants grafted an erroneous contract out of federal regulations for their own
' benefit and HUD said this methodology was unacceptable. HUD took action against the
defendants for using this erroneous contract (IDIS #901) under their power given in 42 U.S.
Code § 2000d-l and fined the defendants. However, HUD was not created to remedy all civil
actions arising under the Constitution, laws, or treaties of the United States, that’s the job given
to the District courts. In this instant case, the District court accepted HUD’s Federal authority
for the interpretation of the Federal regulations in determining whether or not this contract was

13

compliant and said, "... it is clear from the evidence that errors were made by the city... ” But as
of yet, the court has not ruled on if this contract can be legally enforced. HUD can determine that
this contract is not regulatory compliant, but HUD cannot determine whether or not if this
contract is legal. The determining of if this contract is legal or not is a Federal question under 28
U.S. Code § 1331 and remains unanswered by the District Courts. If this Federal question has yet
to be answered, then there are no state actions available to the plaintiff.
The street that the plaintiff was standing on when the gang of thieves took his wallet is on
Federal grounds. The tool that the gang of thieves used was forged in the fire of Federal law.11In
Patsyv. Board ofResents ofFlorida. 457 U. S. 496 (1982). we held that plaintiffs need not
exhaust state administrative remedies before instituting § 1983 suits in federal court ” Felder v.
Casey, 487 US 147.

REASONS FOR GRANTING THE PETITION

This case presents the Court with an opportunity to resolve the issue that tens of thousands of
U.S. citizens have been unconstitutionally impacted in detriment by cities not following HUD
guidance or U.S. code regulations as specified; exposed publicly by the U.S. Department of
Housing and Urban Development’s Notice: CPD 12-003.
(1) The Court can clarify what remedy a citizen has when the HUD-City-Citizen agreement is
breached; when the City is found non-compliant by HUD.
(2) Do “minimal requirements” provide sufficient due process when any possible outcome
results in the loss of a constitutionally protected right by a U.S. citizen in a HUD-City-Citizen
agreement.
(3) If there is an actual loss of property from a U.S citizen from a local government in what is
found to be non-compliance in a federal spending clause by a Federal Agency, do you apply the
precedents of Wright and Wilder, or the precedent of Gonzaga, or the precedent set by all three?

14

;

CONCLUSION

Petitioner respectfully requests that for the foregoing reasons, the petition for a Writ of
Certiorari should be granted to review the judgement of the Court of Appeals for the Fourth
Circuit (19-1999).

Dated this 4th day of December, 2020.
Respectfully submitted?-""'

is <•-------~

Mark T. Grant
pro se
41 Turtleback Path
Hardy, VA 24101
Tel.: (540) 427-1441
Fax: (540) 427-1441
Cell: (540) 761-3347
E-Mail: kingcar2002@vahoo.com

15

